audit report



Return to the USDOJ/OIG Home Page



Office of Justice Programs
Fiscal Year 1995 
Grant to the 
New York State Division for Youth,
Juvenile Boot Camp

GR-70-99-013
September 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant number 95-SC-LX-0041, awarded by the U.S. Department of Justice (DOJ) Office of Justice Programs (OJP) to New York State Division for Youth (the grantee).  The grantee received grants totaling $1,134,118 to construct a 30-bed facility located adjacent to the existing 30-bed facility of the Youth Leadership Academy (YLA).  The grant project period was from September 1, 1995 through March 31, 1998.  As of March 31, 1998, the grantee had expended all grant funds.

 Our audit concentrated on, but was not limited to, the period September 1, 1995 through March 31, 1998.  We tested the accuracy and reliability of the grantee's accounting system, reviewed the general ledger, and determined if costs charged to the grant were allowable, allocable, and reasonable.  

For the purposes of this review, we used the Office of Management and Budget  (OMB) Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations; and the OJP Financial Guide for the administration of grants.

	Based on our audit, we found that the grantee properly managed the grant.
 
Costs charged to the grant were allowable, allocable, and reasonable.

	The grant objectives outlined in the application were achieved.

However, we did identify deficiencies that are described in the Findings and Recommendations section of this report.  Our Scope and Methodology Section appears in Appendix I.